                                     SOCIAL SECURITY
MEMORANDUM

Date:   February 10, 2009                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Effectiveness of Title XVI Installment Agreements (A-02-09-29007)



        The attached final Quick Response Evaluation presents the results of our review. Our
        objective was to determine the effectiveness of the Social Security Administration’s
        efforts to collect Title XVI overpayments from individuals who agreed, but failed, to
        honor an installment agreement.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
Effectiveness of Title XVI
 Installment Agreements

       A-02-09-29007




       February 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                           Background
OBJECTIVE
Our objective was to determine the effectiveness of the Social Security Administration’s
(SSA) efforts to collect Title XVI overpayments from individuals who agreed, but failed,
to honor an installment agreement.

BACKGROUND
Individuals are considered overpaid when they receive funds in excess of the correct
amount. 1 With few exceptions, overpaid individuals are responsible for repaying the
overpayments. 2 SSA prefers a full refund of an overpayment. 3 If a full refund is not
possible, SSA has several methods of collecting a Title XVI overpayment. If the
overpaid individual is receiving Title XVI payments, SSA’s systems automatically
withhold 10 percent of the individual’s benefit payment 60 days after an overpayment
notice is sent if the individual does not respond to the overpayment notice within
30 days. The Agency will delay withholding from the individual’s benefit payment if
reconsideration or waiver of the overpayment is requested. 4 If the individual is not
currently receiving Title XVI payments, SSA can collect the Title XVI overpayment from
any Title II benefits due, which is referred to as Cross Program Recovery. 5

Some beneficiaries cannot manage or direct the management of their finances because
of their youth or mental or physical impairment. For such beneficiaries, Congress
provided for payment to be made through a representative payee who receives and


1
 Social Security Act § 1631(b); 42 United States Code § 1383(b); Title 20 Code of Federal Regulations
(C.F.R.) § 416.537(a); see also SSA’s Program Operations Manual System (POMS) GN 02201.001
Overpayments- General.

2
 POMS, SI 02260.001 Supplemental Security Income (SSI) Overpayment- Basic Requirements
Concerning Waiver, individuals may not be responsible for repaying an overpayment when they are
without fault in causing the overpayment and recovery would either defeat the purpose of Title XVI of the
Social Security Act, be against equity and good conscience, or impede effective or efficient administration
of Title XVI of the Social Security Act because of the amount involved. Additionally, according to POMS,
GN 02215.235, Suspension or Termination of Collection Action for Title II and Title XVI Debts, SSA may
discontinue collection efforts if the debtor cannot repay, the debtor cannot be located, or the costs of
collection are expected to exceed the amount recoverable. However, the debt is still subject to future
collection and may be recovered if the debtor returns to payment status or through the use of external
collection sources.

3
    POMS, SI 02220.025 SSI Overpayment- Recovery By Refund.
4
    POMS, SI 02220.001 Recovery Procedures for SSI Overpayments- General.
5
 POMS, SI 02220.020 Cross Program Recovery (CPR) of SSI Overpayments from Monthly Title II
Benefits.


Effectiveness of Title XVI Installment Agreements (A-02-09-29007)                                         1
manages the beneficiary’s funds. 6 If SSA is unable to collect an overpayment from a
beneficiary, and the overpaid funds were paid to a liable representative payee, 7 the
overpayment can be recovered from the representative payee’s Title XVI payments or
Title II benefits.

When SSA is unable to recover the overpayment through adjustment to monthly
payments and an overpaid person does not make a full refund in a single payment, an
individual can enter into an agreement with SSA and refund the overpayment through
monthly installment payments. When a debtor makes, but later fails to honor, an
installment agreement, SSA’s procedures 8 prescribe that the following outreach efforts
should occur.

     The Recovery and Collection of Overpayment Process (RECOOP) sends
      two reminder bills, 1 month apart.

     If the beneficiary has not made a payment 30 days after the second reminder bill is
      sent, RECOOP sends a call-in notice, advising the debtor to call the Debt
      Management Section in the program service center of jurisdiction.

     If there is still no response from the beneficiary 15 days later, an alert is generated
      for the Debt Management Section to contact the debtor by telephone.

     The Debt Management Section controls the case until the debt is resolved.

If certain criteria are met, SSA can also recover delinquent overpayments through such
options as the Treasury Offset Program (TOP), which offsets any Federal payment (for
example, a tax refund) and/or Administrative Wage Garnishment (AWG), a vehicle by
which a delinquent SSA debtor’s wages may be garnished. Debtors who have been
sent a second reminder bill by RECOOP and meet the applicable criteria for TOP and/or
AWG are selected by SSA’s automated External Collection Operation (ECO) system.

To meet our objective, we obtained a data extract from one segment of the
Supplemental Security Record (SSR) 9 for individuals with an open installment
agreement as of October 1, 2007. From this data set, we isolated individuals with an
overpayment balance of $15,000 or more who had not made any of the agreed-upon
installment payments from October 1 through December 31, 2007. For this review, we

6
    Title 20 C.F.R. §416.601(b); see also POMS, GN 00501.005 Overview of Representative Payment.

7
 POMS, SI 02201.021 SSI Responsibility- Representative Payment, The representative payee is
personally responsible for repayment if the incorrect payments were not used for the recipient’s support
and maintenance. The recipient and representative payee are jointly liable when the incorrect payments
have been expended on the recipient and the representative payee was aware of the facts causing the
overpayment.
8
    POMS, SM 00610.735 Installment Agreements.
9
    One segment of the SSR represents 5 percent of the total population, that is, 1/20.


Effectiveness of Title XVI Installment Agreements (A-02-09-29007)                                          2
considered these installment agreements to be delinquent. There were 102 individuals
in the SSR segment with combined overpayments totaling approximately $2.2 million
who met the selection criteria. Since there are 20 segments of the SSR, we estimate
about $44 million in overpayments met our criteria. We reviewed SSA’s records for the
102 individuals to determine whether SSA took the appropriate steps to collect the
delinquent amounts. We conducted a similar review of Title II Installment Agreements
for our September 2008 report, Status of Title II Installment Agreements
(A-02-08-18074). Additional details of our Scope and Methodology are in Appendix B.




Effectiveness of Title XVI Installment Agreements (A-02-09-29007)                       3
                                                           Results of Review
The effectiveness of SSA’s efforts to collect overpayments related to delinquent Title
XVI installment agreements could be improved. While SSA generally followed its
procedures for billing and contacting delinquent debtors, it did not pursue other recovery
methods available for all eligible cases.

We found that 5 of the 102 cases we reviewed were eligible for TOP, but they were not
referred. In four other cases, benefit withholding from a representative payee could
have been pursued, but was not. In two additional cases, both TOP and benefit
withholding from a representative payee could have been pursued, but were not. 10
Also, we identified one debtor who was receiving Title XVI payments, but funds were
not being withheld from her monthly payments to recover a prior overpayment.

By not pursuing available collection methods in these 12 cases, SSA lost the
opportunity to collect $252,685. 11 Estimating these results to the entire SSR, we
estimate SSA failed to pursue available collection methods for 240 individuals (with
overpayment balances of $15,000 or more) or their representative payees with
combined overpayments of $5.1 million.

USE OF TREASURY OFFSET PROGRAM

Our audit of Title II installment agreements 12 found that TOP and AWG were the most
effective methods of collection; however, they were not always pursued when
applicable. Similarly, we identified seven Title XVI debtors who met the TOP eligibility
criteria as of August 2008, but were not referred. As with our review of Title II
installment agreements, this was due in part to the ECO system selection of debts as
described in the following paragraphs.

SSA used TOP effectively with some of the debtors we reviewed. As of August 2008,
SSA was pursuing offset against 21 eligible debtors and had recovered $13,565 from 7.
Additionally, SSA recovered $15,939 from five individuals who previously met the
criteria for TOP, but did not meet the eligibility criteria as of August 2008. While SSA
used TOP effectively with some cases, it did not pursue it for seven additional debtors
who met TOP eligibility criteria.

10
  One of the debtors had previously been referred for TOP, but was no longer subject to it at the time of
our review. The debtor had multiple overpayments and TOP ceased when the earliest overpayment
became over 10 years old. The debtor’s second overpayment was established fewer than 10 years ago,
but was no longer subject to TOP.
11
  For the debtor mentioned in the footnote above, only the overpayment that is fewer than 10 years old is
included in the balance. The overpayment that is over 10 years old, and thus ineligible for TOP, is not
included in the combined overpayment balance.
12
  SSA/Office of the Inspector General, Status of Title II Installment Agreements (A-02-08-18074),
September 2008.


Effectiveness of Title XVI Installment Agreements (A-02-09-29007)                                           4
All seven debtors who were eligible and not referred for TOP had multiple
overpayments recorded on their SSRs. Some of the debtors’ previous overpayments
did not meet the criteria for TOP. 13 For example, the debtor was under age 18 when
the debt was established or the debt was over 10 years old. Although the current debts
we reviewed met the criteria for TOP, the existence of the old debts on the individuals’
records prevented the eligible debts from being selected by ECO. By not pursuing TOP
against these seven debtors, SSA lost the opportunity to collect $151,791.

RECOVERY FROM REPRESENTATIVE PAYEE BENEFITS

If SSA is unable to collect an overpayment from a recipient, and the overpaid funds
were paid to a liable representative payee, the overpayment can be recovered from the
representative payee’s own Title XVI payments or Title II benefits. We identified six
representative payees who were receiving their own Title II benefits and/or Title XVI
payments that could have been used to recover their recipients’ overpayments.
However, SSA did not propose benefit adjustment against the representative payees’
own benefits despite their joint liability for the overpayments with a combined balance of
$116,252.

One-half (51 of 102) of the debtors we reviewed had representative payees. Ten of
those representative payees were receiving their own Title XVI payments and/or Title II
benefits. Of these 10, SSA could have pursued recovery from the representative
payee’s benefits in 7 cases, but only did so in 1 case. SSA did not pursue benefit
withholding in the other six eligible cases.

RECOVERY FROM BENEFITS DUE THE DEBTOR

We identified one debtor who had previously received Title XVI payments and was
overpaid $16,285. After not receiving Title XVI for 7 years, she began receiving monthly
payments again. However, the overpayment was not transferred to her new record, and
no action was taken to recover the overpayment.

The field office is responsible for recognizing the need to transfer an overpayment from
a terminated record to the new SSR. This process is performed automatically in most
cases through the automated reconciliation process. However, the field office must
identify those situations that can use the automated reconciliation process, as well as
those that require manual processing. In this case, the field office employee who
established the new Title XVI record failed to transfer the overpayment to the current
record.


13
  According to POMS, SI 02220.012 Collection of Title XVI Overpayments By Tax Refund Offset (TRO),
for a debtor to be selected for offset of a tax refund by the TOP system, certain criteria must be met,
including the debtor must be at least 18 years old when the debt is established on SSA’s records and the
debt is delinquent for no more than 10 years. According to POMS, SI 02220.013 Collection of Title XVI
Overpayments by Administrative Offset, other types of administrative offset, also processed by the TOP
system, must meet these criteria as well.


Effectiveness of Title XVI Installment Agreements (A-02-09-29007)                                      5
                                       Matters for Consideration
Based on the results of our review, SSA is not fully using all recovery methods available
to recover delinquent Title XVI overpayments. SSA can pursue benefit withholding from
representative payees when it is available if attempts to recover the overpayment from
the recipient have failed. We recommended in our prior report, Status of Title II
Installment Agreements (A-02-08-18074), that SSA maximize recovery via TOP in both
Title II and Title XVI cases. Additionally, SSA should transfer overpayments from
terminated SSRs to new SSRs when a new record is put into payment status.

SSA is already pursuing corrective actions in response to our September 2008 audit 14
that should also address the issues identified in this review. We provided SSA a list of
the 12 cases identified during our review so the Agency can take appropriate action.




14
  SSA/Office of the Inspector General, Status of Title II Installment Agreements (A-02-08-18074),
September, 2008.




Effectiveness of Title XVI Installment Agreements (A-02-09-29007)                                   6
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




Effectiveness of Title XVI Installment Agreements (A-02-09-29007)
                                                                    Appendix A

Acronyms
    AWG                 Administrative Wage Garnishment

    C.F.R.              Code of Federal Regulations

    ECO                 External Collection Operation

    OIG                 Office of the Inspector General

    POMS                Program Operations Manual System

    RECOOP              Recovery and Collection of Overpayment Process

    SSA                 Social Security Administration

    SSI                 Supplemental Security Income

    SSR                 Supplemental Security Record

    TOP                 Treasury Offset Program




Effectiveness of Title XVI Installment Agreements (A-02-09-29007)
                                                                      Appendix B

Scope and Methodology
Our objective was to determine the effectiveness of the Social Security Administration’s
(SSA) efforts to collect Title XVI overpayments from individuals who agreed to, but
failed to honor, an installment agreement. To meet our objective, we:

   Reviewed applicable Federal laws, regulations and SSA’s policies and procedures
    regarding the collection of Title XVI overpayments.

   Contacted staff within SSA’s Office of Public Service and Operations Support for
    information about the input of Title XVI Installment Agreements into SSA’s systems.

   Obtained a data extract from one segment of the Supplemental Security Record
    (SSR) of individuals with an open installment agreement as of December 31, 2007.
    We determined which individuals were in default of the agreement by selecting only
    those individuals who made an agreement October 1, 2007 or earlier, but had not
    made a remittance from October through December 2007.

We focused our review on individuals with overpayment balances of $15,000 or more.
To limit our review to only those individuals who agreed to make regular monthly
installment payments, we excluded individuals whose monthly installment amount was
coded as the full overpayment amount. We determined that 102 individuals in the
segment met our selection criteria. The combined overpayment balance for these
individuals was about $2.2 million.

We reviewed SSRs, Debt Management System queries, and notices obtained via the
Online Retrieval System to determine whether the procedures described in SSA’s
Program Operations Manual System, Systems and Methods 00610.735, Installment
Agreements, were followed. We also determined whether other recovery methods,
such as the Treasury Offset Program, Administrative Wage Garnishment, and reporting
to credit bureaus, were applicable and used. Lastly, we reviewed the SSRs, Master
Beneficiary Records, and earnings records of payees representing the recipients we
reviewed to determine whether recovery from the representative payee was applicable
and, if so, pursued.

We determined the data used for our review were sufficiently reliable given our objective
and their intended use and should not lead to incorrect or unintended conclusions. We
performed our review in the New York Audit Division in November and December 2008.
The entity reviewed was the Office of Public Service and Operations Support under the
Deputy Commissioner for Operations. We conducted our review in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.



Effectiveness of Title XVI Installment Agreements (A-02-09-29007)
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Tim Nee, Director, New York Audit Division, (212) 264-5295

   Victoria Abril, Audit Manager, (212) 264-0504

Acknowledgments
In addition to those named above:

   Christine Hauss, Senior Program Analyst

   James Kim, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-29007.




Effectiveness of Title XVI Installment Agreements (A-02-09-29007)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
